XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3896
Facsimile: (415) 703-2552
E-Mail: Josh.Patashnik@doj.ca.gov

January 21, 2021
Ms. Denise McNerney
Merits Cases Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Via Electronic Filing
RE:

Request for extension of time to file respondents’ brief on the merits
Cedar Point Nursery v. Hassid, No. 20-107

Dear Ms. McNerney:
I am counsel for the respondents in this case. Petitioners filed their brief on the merits on
December 31, 2020, making respondents’ brief on the merits currently due Monday, February 1,
2021. See S. Ct. Rules 25.2, 30.1. Respondents respectfully request a 4-day extension, to and
including Friday, February 5, 2021, in which to file their brief on the merits. Respondents
request this short extension in order to provide additional time for counsel at the California
Department of Justice and the California Agricultural Labor Relations Board to review and
revise the brief. This is respondents’ first request for an extension of time in which to file their
brief on the merits. Counsel for petitioners have indicated that petitioners consent to this request.
Sincerely,
/s/ Joshua Patashnik
JOSHUA PATASHNIK
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Joshua Thompson and Wencong Fa, counsel for petitioners
Pacific Legal Foundation
Via Email (jthompson@pacificlegal.org; wfa@pacificlegal.org)

